TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Procurement Audit Results Indicate
                        Problems Continue to Exist After
                      Corrective Actions Were Implemented



                                      September 14, 2010

                              Reference Number: 2010-10-088




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


PROCUREMENT AUDIT RESULTS                             recommended that the IRS use
INDICATE PROBLEMS CONTINUE TO                         performance-based procurements and firm
EXIST AFTER CORRECTIVE ACTIONS                        fixed-price procurements whenever possible.
WERE IMPLEMENTED                                      Subsequent to these reports, TIGTA issued
                                                      several reports with similar recommendations.
                                                      TIGTA also identified trends where the IRS did
Highlights                                            not have sufficient monitoring controls or
                                                      processes to ensure contractors were meeting
Final Report issued on September 14, 2010             the procurements’ terms and conditions;
                                                      contractors did not provide adequate
Highlights of Reference Number: 2010-10-088           documentation to support invoice charges;
to the Internal Revenue Service Chief of              invoices included unallowable labor, travel, or
Agency-Wide Shared Services.                          maintenance charges; and modernization
                                                      contracts failed to achieve their objectives or
IMPACT ON TAXPAYERS                                   intended benefits. One of the most common
As of March 15, 2010, the Internal Revenue            recurring issues was the need for improved
Service’s (IRS) Office of Procurement was             monitoring by the Office of Procurement’s
responsible for administering 839 procurements        Contracting Officers and the program offices’
with a value of approximately $48 billion over the    Contracting Officer’s Technical Representatives.
life of the procurements. TIGTA has conducted         Collectively, these trends are a concern because
a number of acquisition audits and found that         they indicate that the IRS continued to use
there were concerns with the procurement              inadequate controls, processes, and practices to
process. While the IRS took corrective actions        award and monitor procurements during this
to address many of the findings when the TIGTA        10-year period. The IRS Office of Procurement
reports were originally issued, TIGTA has             advised us it has started new initiatives that
continued to find recurring problems. Until the       address some of the issues and trends that are
IRS implements effective internal controls, it will   presented in this report. In addition, the IRS
be unable to provide assurance that the Federal       needs to improve the control environment to
Government is receiving the best value for            reduce the risk of similar problems in the future.
procurements or that contractors are meeting          TIGTA believes it is critical that the IRS include
the procurements’ terms and conditions to             prior audit findings and recommendations as
deliver goods or services.                            part of its overall annual risk assessment for
WHY TIGTA DID THE AUDIT                               acquisitions to ensure that the necessary
                                                      internal controls are implemented and are
This audit was initiated to identify and categorize   working effectively.
IRS acquisition findings identified in TIGTA audit
reports issued from Fiscal Year 1999 through          WHAT TIGTA RECOMMENDED
June 2009. This report also presents a                TIGTA did not make recommendations in this
high-level overview to provide IRS management         report. In their response to the report, IRS
with the ongoing risks that may affect its current    officials agreed that increasing both
and future procurements.                              performance-based and firm fixed-price
WHAT TIGTA FOUND                                      contracting has been challenging over the past
                                                      10 years, but added that they have made
Based on our analysis of 74 TIGTA audit reports       significant progress in both of these areas and
conducted over an approximate 10-year period,         have identified several new initiatives to address
TIGTA found that there were several problems          other trends. IRS officials stated that had TIGTA
that continued to exist even after corrective         performed an analysis of corrective actions
actions were taken by the IRS. This resulted in       implemented in response to past audit reports,
TIGTA issuing repeat recommendations in many          this report would more accurately reflect the
of these areas. For example, in two different         progress the IRS has made.
audit reports issued in Fiscal Year 2002, TIGTA
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 14, 2010


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Procurement Audit Results Indicate Problems
                             Continue to Exist After Corrective Actions Were Implemented
                             (Audit # 200910033)

 This report presents the results of our review of the procurement issues identified in prior
 Treasury Inspector General for Tax Administration audit reports. The objective of this review
 was to identify and categorize acquisition issues that were identified in Treasury Inspector
 General for Tax Administration audits issued from Fiscal Year 1999 through June 2009 in an
 effort to minimize risks associated with future Internal Revenue Service acquisitions. This
 review is included in our Fiscal Year 2010 Annual Audit Plan and addresses the major
 management challenge of Erroneous and Improper Credits and Payments.
 Management’s complete response to the draft report is included as Appendix XI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report finding. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                                             Procurement Audit Results Indicate
                                               Problems Continue to Exist After
                                            Corrective Actions Were Implemented




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Recurring Audit Findings and Recommendations Indicate
          Corrective Actions Were Not Sufficient to Resolve Problems ..................... Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 10
          Appendix III – Report Distribution List ....................................................... Page 11
          Appendix IV – Number of Procurement-Related Audit Reports Issued
          by Year With the Corresponding Number of Findings,
          Recommendations, and Corrective Actions .................................................. Page 12
          Appendix V – Total Outcome Measures by Type ........................................ Page 13
          Appendix VI – Use of Different Contract Types During the
          Period 2005–2010 ......................................................................................... Page 14
          Appendix VII – Office of Procurement Authorized Staffing Levels
          Fiscal Years 2000–2009 ................................................................................ Page 15
          Appendix VIII – Number and Total Value of Internal Revenue Service
          Procurements................................................................................................. Page 16
          Appendix IX – Office of Procurement’s Operational Budget Levels
          Fiscal Years 2000–2009 ................................................................................ Page 17
          Appendix X – Listing of the Reports Addressing the Use of
          Performance-Based and Firm Fixed-Price Procurements ............................. Page 18
          Appendix XI – Management’s Response to the Draft Report ...................... Page 20
           Procurement Audit Results Indicate
             Problems Continue to Exist After
          Corrective Actions Were Implemented




              Abbreviations

COTR    Contracting Officer’s Technical Representative
IRS     Internal Revenue Service
OMB     Office of Management and Budget
TIGTA   Treasury Inspector General for Tax Administration
                                      Procurement Audit Results Indicate
                                        Problems Continue to Exist After
                                     Corrective Actions Were Implemented




                                            Background

The Treasury Inspector General for Tax Administration (TIGTA) issued 74 audit reports1
addressing procurements by the Internal Revenue Service (IRS) during the period
Fiscal Year 1999 through June 2009. We conducted this review to identify and categorize IRS
acquisition issues that were identified in these TIGTA audits. Appendix IV contains the number
of audit reports issued by year, with the corresponding number of findings, recommendations,
and corrective actions included in the reports. Appendix V shows the outcome measures by
type.
We also evaluated IRS initiatives and the most significant policy and procedural changes
affecting IRS procurements during our audit period. Some of these changes resulted from
legislation, regulatory reform, or Office of Management and Budget (OMB) policy issuances,
while others occurred due to internal or Government-wide process improvement initiatives.2
These changes were accompanied by the need to develop new controls for the new initiatives and
requirements or to update and strengthen controls as the procurement environment evolved.
One major initiative that has affected IRS procurements since Calendar Year 1999 is the IRS
Business Systems Modernization Program. This program is a complex effort to modernize IRS
technology and related business processes. As of Fiscal Year 2010, the Business Systems
Modernization Program is in its 11th year and has received more than $3 billion for contractor
services and internal IRS costs. Another important issue affecting IRS acquisitions has been the
greater emphasis on security, including computer system security and security requirements for
contractor personnel. Other issues affecting IRS acquisitions over the past decade include:
    •   The recent development of a “Green” Procurement Plan3 within the Office of
        Procurement.
    •   Recent legislation, such as the American Recovery and Reinvestment Act of 2009,4
        which encouraged competitively awarded firm fixed-price procurements and the use of
        small business contractors.




1
  See Appendix IV for the number of reports issued by fiscal year.
2
  The IRS Office of Procurement provided us with a summary of the legislation, regulations, policy issuances, and
process improvements it believed had the greatest influences on IRS acquisitions during the last decade.
3
  “Green” procurement is one of the program elements of the IRS’ Environmental Program to ensure sound
environmental stewardship, the prevention of environmental incidents, compliance with all relevant environmental
regulations, and the promotion of continual improvement in environmental performance.
4
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                                           Page 1
                                       Procurement Audit Results Indicate
                                         Problems Continue to Exist After
                                      Corrective Actions Were Implemented



    •    Automation, including electronic procurement initiatives and new automated systems for
         the primary purpose of either reporting procurement data or announcing information to
         the public or contractors.
    •    Training and certification of the acquisition workforce.
The need for a strategic approach towards acquisition is common across the Federal
Government. A January 2007 report issued by the Acquisition Advisory Panel5 to the Office of
Federal Procurement Policy6 and the United States Congress recommended that Federal agencies
establish clear performance requirements, measurable performance standards, and a quality
assurance plan to improve the use of performance-based contracting.7 In addition, the
Government Accountability Office issued a report in February 20078 in which it recommended
that the Office of Federal Procurement Policy develop an oversight strategy or plan with
milestones and reporting requirements to help it ensure the implementation of the advisory
panel’s recommendations and to gauge how they improve Federal acquisition.
There has also been an increased focus on the acquisition workforce. The Acquisition Advisory
Panel report also stated that the size of the Federal acquisition workforce has remained relatively
stable since 1999, while the volume and complexity of Federal contracting has mushroomed.
The report recommended that all agencies begin acquisition workforce human capital planning
immediately. Our review did not address the sufficiency of the size or experience and skill
levels of the IRS acquisition workforce; however, this is being reviewed in another ongoing
TIGTA audit, which was initiated in April 2010.9
In addition to the broad procurement environment changes, we evaluated the IRS’ procurement
program data for our audit period and compared that data to the data as of March 2010, the end
of our fieldwork. The data included the total numbers, dollar value, and contract types10 of IRS
procurements and trends for staffing levels within the Office of Procurement. As of

5
  The Acquisition Advisory Panel was authorized by Section 1423 of the Services Acquisition Reform Act of 2003,
which was enacted as part of the National Defense Authorization Act for Fiscal Year 2004.
6
  The Office of Federal Procurement Policy in the OMB was established by Congress in 1974 to provide overall
direction for Government-wide procurement policies, regulations, and procedures and to promote economy,
efficiency, and effectiveness in acquisition processes.
7
  Performance-based contracting is a method of contracting for which the Government defines the results it is
seeking, rather than the process by which those results are attained. The benefits include better prices and
performance, the Government is released from having to develop detailed specifications and define the process, the
contractor has more flexibility on how it achieves the desired results, less day-to-day surveillance is required, and
contractors are motivated to be innovative and to save money.
8
  Oversight Plan Needed to Help Implement Acquisition Advisory Panel’s Recommendations (GAO-08-160, dated
December 2007).
9
  On April 12, 2010, the IRS was advised of the audit Internal Revenue Service Acquisition Workforce (Audit
Number 201010012).
10
   See Appendix VI for trends in contract types, Appendix VII for trends in staffing levels, and Appendix VIII for
trends in total numbers and dollar value of procurements.
                                                                                                              Page 2
                                        Procurement Audit Results Indicate
                                          Problems Continue to Exist After
                                       Corrective Actions Were Implemented



March 15, 2010, the Office of Procurement was responsible for administering 839 procurements;
664 in contracts of varying types (including associated task and delivery orders) and 175 in
Blanket Purchase Agreements and Interagency Contracts and Agreements. Procurement records
show that the number of procurements has remained relatively steady since April 15, 2005, when
there were 871 procurements. However, the total value of the procurements increased from
$43.6 billion to approximately $48 billion since April 2005. For our 10-year audit period, the
Office of Procurement’s authorized staffing11 has remained constant while its operating budget
has nearly doubled. Specifically, the Office of Procurement’s staffing level was at
542 employees as of September 2000 and 537 employees as of September 2009. However, the
operational costs for the Office of Procurement increased significantly, from $43.4 million in
September 2000 to $78.3 million in September 2009, an increase of $34.9 million (or about
80 percent).12
This review was performed at the Office of Procurement in Oxon Hill, Maryland, during the
period October 2009 through March 2010. We did not evaluate internal controls because doing
so was not applicable within the context of our objective. Otherwise, we conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




11
   See Appendix VII for the Office of Procurement authorized staffing details.
12
   See Appendix IX for the Office of Procurement annual operational budget levels. Approximately 70 percent of
the operational cost increase is due to increases in salaries and benefits and an additional 28 percent of the increase
is related to increases in support costs which include training and computer support.
                                                                                                                Page 3
                                       Procurement Audit Results Indicate
                                         Problems Continue to Exist After
                                      Corrective Actions Were Implemented




                                       Results of Review

Based on our review of the 74 TIGTA audit reports, we found that there were several findings13
that continued to exist throughout our audit period. For the most part, the 111 findings and
200 related recommendations14 identified in these 74 reports were unique and could not easily be
placed into defined categories. However, the TIGTA made repeat recommendations in some
areas. For example, in two different audit reports issued in Fiscal Year 2002, the TIGTA
recommended that the IRS use performance-based procurements and firm fixed-price
procurements whenever possible.15 Subsequent to these reports, the TIGTA issued several
additional reports containing similar recommendations. We also identified other trends, such as:
the IRS did not have sufficient monitoring controls or processes to ensure contractors were
meeting the procurements’ terms and conditions, contractors did not provide adequate
documentation to support invoice charges, invoices included unallowable labor and travel
charges, and modernization contracts failed to achieve their objectives or intended benefits. One
of the most common recurring issues was the need for improved monitoring by the Office of
Procurement’s Contracting Officers and the program offices’ Contracting Officer’s Technical
Representatives (COTR).16
Collectively, these trends are a concern because they indicate that the IRS continued to use
inadequate controls, processes, and practices to award and monitor procurements during this
period. The IRS needs to improve the control environment to reduce the risk of similar problems
in the future. Until this occurs, the IRS will be unable to provide assurance that the Federal
Government is receiving the best value for its procurements and/or that contractors are meeting
the procurements’ terms and conditions. To accomplish this, we believe it is critical that the IRS




13
   The TIGTA’s audit reports identify issues that require the IRS’ attention to improve its administration of the tax
laws. These issues (called “findings”) are followed with recommendations to the IRS suggesting ways to address
the issue. The IRS responds to the TIGTA’s audit reports and includes in its response “corrective actions” that are
designed to address the report’s recommendations and the related problems identified in the audit reports.
14
   See Appendix IV for the number of findings and recommendations per year.
15
   See Appendix X for a listing of the TIGTA reports addressing the use performance-based procurements and
firm fixed-price procurements.
16
   A Contracting Officer is a person with the authority to enter into, administer, and/or terminate contracts and make
related determinations and findings. The COTR is a person designated by the Contracting Officer to perform certain
technical and administrative tasks related to a specific contract. The primary role of the COTR is to monitor the
contractor’s performance, ensure that the contractor delivers what is called for in the terms and conditions of the
contract, and serve as the technical liaison between the contractor and the Contracting Officer.
                                                                                                              Page 4
                                        Procurement Audit Results Indicate
                                          Problems Continue to Exist After
                                       Corrective Actions Were Implemented



include prior audit findings and recommendations as part of its overall annual risk assessment17
for acquisitions to ensure that the necessary internal controls are implemented and are working
effectively.

Recurring Audit Findings and Recommendations Indicate Corrective
Actions Were Not Sufficient to Resolve Problems
We found several instances of repeat or similar findings or recommendations occurring over the
years covered by our audit period. The IRS took corrective actions to address many of the
recommendations included in the reports we reviewed. However, the repeat findings and
recommendations are an indication that the corrective actions were not effective.18
We identified two issues for which the TIGTA made several repeat recommendations—the use
of performance-based contracting and the use of firm fixed-price contracts. In Fiscal Year 2002,
the TIGTA recommended that the IRS use performance-based contracting whenever possible.
While the IRS agreed with the recommendation, it did not agree with the TIGTA’s method for
implementing the recommendation. As a result, the IRS did not implement any corrective
actions for this recommendation. In Fiscal Year 2005, the TIGTA issued a second report
containing a similar finding and recommendation. In this instance, while the IRS did not reject
the TIGTA’s recommendation, the TIGTA did not believe that the IRS’ corrective action was
adequate to address the issues noted in the report. Three additional reports containing similar
findings and recommendations were issued since the Fiscal Year 2005 report. While the IRS
implemented corrective actions in response to these reports when they were originally issued and
has subsequently taken additional actions, we did not evaluate these actions in this audit to
determine if the IRS effectively addressed the issue. However, as of March 31, 2010, the IRS
reported that 49 percent of eligible contracts were performance-based which exceeds the
Department of the Treasury’s Fiscal Year 2010 goal of 40 percent.19




17
   OMB Circular A-123 (December 2004) defines management’s responsibility for internal control in Federal
agencies. The purpose of the Circular is to improve the accountability and effectiveness of Federal programs and
operations by establishing, assessing, correcting, and reporting on internal controls. When assessing risks,
management should take into account previous audit findings, internal management reviews, or noncompliance with
laws and regulations. In May 2008, the OMB issued a memorandum to Chief Acquisition Officers, Conducting
Acquisition Assessments Under OMB Circular A-123, which provides guidelines for conducting entity-level internal
control reviews of the acquisition function as required by Circular A-123.
18
   Our review did not assess the effectiveness of the corrective actions that did not fall into the categories discussed
here, so we are not commenting on whether they adequately addressed the reported findings.
19
   Federal Procurement Data System-Next Generation statistics demonstrate the IRS awarded $262,556,513 as
performance-based acquisitions out of $539,915,066 eligible actions, thereby resulting in 49 percent of the awarded
eligible service contracts implementing performance-based acquisitions through the second quarter of
Fiscal Year 2010.
                                                                                                                Page 5
                                   Procurement Audit Results Indicate
                                     Problems Continue to Exist After
                                  Corrective Actions Were Implemented



The TIGTA reported in Fiscal Year 2002 that the IRS’ use of firm fixed-price contracts had
decreased and recommended that the IRS use firm fixed-price contracts whenever possible. The
IRS agreed with this recommendation and implemented corrective actions. However, in
Fiscal Year 2005, the TIGTA issued another report addressing the need for the IRS to increase
the use of firm fixed-price contracts. While the IRS agreed to the overall recommendation, the
TIGTA stated that the IRS’ corrective actions would not correct the identified issue. In
Fiscal Years 2007 and 2009, the TIGTA issued two additional reports with similar findings and
recommendations.
During our review, we found that as of March 15, 2010, only a little over half of the IRS
contracts were firm fixed-price contracts.20 When considered as a percentage of the total number
of procurements, fixed-price procurements decreased from 66 percent to 56 percent from
Fiscal Year 2005 to March 2010. However, when considered as a percentage of the total dollar
value of procurements, they increased from 13 percent to 33 percent from Fiscal Year 2005 to
March 2010. As of March 15, 2010, the total value of the cost-reimbursement type contracts,
including option years, was $17 billion. The selection of the proper contract type is important
because under firm fixed-price contracts, the contractor is paid only for those costs agreed to in
the contract, which limits the financial risk to the Federal Government. For cost-reimbursement
contracts, the contractors are reimbursed for all their costs, which is a higher monetary risk to the
Federal Government.
In addition to the above issues, we identified several broader trends involving similar findings
relevant to the procurement process. The IRS took corrective actions to address many of these
findings when the TIGTA reports were originally issued; however, the actions were usually
focused on the specific findings presented in the reports and may not have comprehensively
addressed the risk area across the procurement process. We have not conducted followup audits
on all 74 of the reports we analyzed as part of this review and, therefore, can not comment on
whether any of the corrective actions taken were effective. However, collectively, the trends
indicate that the IRS’ control environment over procurements needs strengthening. Examples of
these trends include:
     •   The IRS lacked monitoring controls or processes to ensure that the contractors were
         meeting the contract terms and conditions. Specifically, the IRS did not verify that
         contractors were sufficiently qualified to perform their duties, that charges submitted for
         vendor invoices were accurate and allowable, and that performance levels were met. For
         example, in one report, contractors did not provide adequate documentation to support
         invoice charges,21 and in another report, the IRS paid for unallowable labor and travel



20
  See Appendix VI for the types of contracts.
21
  Cost Savings Can Be Achieved Through Improved Monitoring of the Treasury Communications System Contract
(Reference Number 2000-10-028, dated February 15, 2000).
                                                                                                   Page 6
                                      Procurement Audit Results Indicate
                                        Problems Continue to Exist After
                                     Corrective Actions Were Implemented



         charges.22 The TIGTA’s recommendations in these reports addressed the need for the
         IRS to enhance its reviews of vendor invoice submissions and recover the unsupported
         charges that constituted improper payments to the contractor. As a result of these
         recommendations, the TIGTA identified a total $4.6 million in questioned costs for
         vendor invoices reviewed during our audit period.
     •   The IRS needed to more clearly define project requirements and specifications in the
         Statements of Work23 supporting contracts and task or delivery orders. These include the
         need for 1) greater assurance that expected benefits would be realized, 2) specifically
         defining requirements, and 3) a means to hold contractors accountable. For example, the
         TIGTA reported that needed tasks for the procured system were not clearly established
         and, as a result, critical portions of the procured system did not operate as expected.24
     •   IRS contractors did not comply with the IRS’ internal procedures and processes. These
         included findings that funding was not properly controlled, project costs were not always
         charged to the appropriate accounting code, and the IRS was not following its own
         procurement processes. For example, in one report, the TIGTA found that the IRS did
         not comply with internal procedural requirements for obtaining proper reviews and
         approval of requisitions.25 Thus, the procurements were at risk for being executed
         without proper authorization.
     •   Modernization contracts failed to meet their scheduled completion dates or achieve their
         intended objective and benefits. For example, the TIGTA found that one modernization
         project continued to change the necessary system requirements, which resulted in
         schedule delays and the continued risk of the project being postponed and not fulfilling
         requirements. 26
Many of these recurring findings relate to inadequate monitoring of the procurements by the IRS
Office of Procurement’s Contracting Officers and the program offices’ COTRs. In addition to
the 74 TIGTA reports we reviewed, a Fiscal Year 2009 TIGTA report27 found that the IRS’


22
   Audit of the Asset Seizure and Forfeiture Program Contract (Reference Number 2004-10-174, dated
September 21, 2004).
23
   The Statement of Work is a technical description of the program requirement and is the basis upon which
contractors prepare proposals, contracts are awarded, and performance is monitored.
24
   The Tax Exempt Determination System Release 1 Delivered Only a Small Portion of the Expected Benefits and
Significantly Exceeded Cost Estimates (Reference Number 2006-10-174, dated September 26, 2006).
25
   All Small-Scale Information Technology Projects Should Be Included in the Investment Inventory, and Related
Procurement Requisitions Should Be Properly Reviewed and Approved (Reference Number 20005-20-050, dated
March 16, 2005).
26
   Vital Decisions Must Be Made to Ensure Successful Implementation of Customer Account Data Engine
Capabilities (Reference Number 2007-20-080, dated July 13, 2007).
27
   Controls Over the Contracting Officer’s Technical Representatives Workforce Were Ineffective, Resulting in
Significant Risks to the Government (Reference Number: 2009-10-139, dated September 30, 2009).
                                                                                                         Page 7
                                      Procurement Audit Results Indicate
                                        Problems Continue to Exist After
                                     Corrective Actions Were Implemented



contract administration was ineffective. As a result, the IRS could not ensure that payments
were made only to contractors who performed in accordance with the procurements’ terms and
conditions and that taxpayer dollars were not being misspent. To ensure effective contract
administration, the IRS needs to address the recommendations in that report and ensure it has
qualified acquisition employees at sufficient staffing levels to carry out this key responsibility.
The intention of our review was to identify trends in acquisition findings and recommendations
in the TIGTA reports and, accordingly, we are not making any new recommendations in this
report. The IRS Office of Procurement advised us it has started new initiatives that address some
of the issues and trends that are presented in this report.28 In addition, the IRS should take steps
to implement the Acquisition Advisory Panel’s recommendations29 and improve its overall
annual risk assessment for acquisitions. These actions should reduce the risk of similar findings
and recommendations in future TIGTA audits of IRS procurements.




28
   The IRS Office of Procurement provided us with information on several initiatives it is undertaking regarding
acquisition planning, performance-based contracting, and its receipt and acceptance processes. We did not evaluate
the effectiveness of these initiatives in addressing prior findings as a part of this review.
29
   The majority of the Panel’s recommendations were made to the Office of Federal Procurement Policy within the
OMB, while the others were directed to Congress and Federal agencies.
                                                                                                           Page 8
                                 Procurement Audit Results Indicate
                                   Problems Continue to Exist After
                                Corrective Actions Were Implemented



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to identify and categorize IRS acquisition issues that
were identified in TIGTA audit reports issued from Fiscal Year 1999 through June 2009 in an
effort to minimize risks associated with future IRS acquisitions. To accomplish our objective,
we:
I.     Contacted IRS Procurement personnel and identified how the procurement of goods and
       services has changed from Fiscal Year 1999 through June 2009, including the number
       and types of acquisitions initiated by the IRS and the size of the workforce administering
       the procurements. We did not perform any procedures to validate the accuracy and
       reliability of the procurement data provided by the IRS.
II.    Reviewed 74 IRS procurement-related reports issued by the TIGTA from
       Fiscal Year 1999 through June 2009 for the purpose of identifying and categorizing the
       findings and recommendations reported.
III.   Determined whether the IRS took corrective actions to address all recommendations
       identified in the TIGTA procurement audits conducted from Fiscal Year 1999 through
       June 2009.
IV.    Reviewed one report issued in September 2009 regarding the effectiveness of
       procurement monitoring controls.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We did not evaluate internal
controls because doing so was not applicable within the context of our objective. In addition, we
did not perform a separate internal control assessment as these would have been performed for
the 74 audit reports we reviewed.




                                                                                           Page 9
                              Procurement Audit Results Indicate
                                Problems Continue to Exist After
                             Corrective Actions Were Implemented



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Michelle Philpott, Audit Manager
Doris J. Hynes, Acting Audit Manager
David P. Robben, Lead Auditor
William Simmons, Senior Auditor
Lara E. Phillippe, Auditor
William E. Thompson, Auditor
Brett C. Thornock, Auditor




                                                                                  Page 10
                              Procurement Audit Results Indicate
                                Problems Continue to Exist After
                             Corrective Actions Were Implemented



                                                                   Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Director, Office of Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Chief, Agency-Wide Shared Services OS:A
       Director, Office of Procurement OS:A:P




                                                                         Page 11
                                     Procurement Audit Results Indicate
                                       Problems Continue to Exist After
                                    Corrective Actions Were Implemented



                                                                                           Appendix IV

       Number of Procurement-Related Audit Reports
     Issued by Year With the Corresponding Number of
    Findings, Recommendations, and Corrective Actions

The following table provides an analysis of the 74 procurement-related audit reports issued by
the TIGTA during the period Fiscal Year 1999 through June 2009.
               Number                                                                            Number of
                                                       Number of    Number of
 Fiscal           of      Total          Total                                                   Corrective
                                                    Recommendations Corrective
 Year          Reports   Findings   Recommendations                                               Actions
                                                        Rejected     Actions
                Issued                                                                          Implemented1
Through
 June              3        7                 9                     0                 9                4
 2009
    2008           8       10                18                     0                35                34
    2007          12       18                29                     0                32                31
    2006           9        6                10                     3                 8                8
    2005          10       13                32                     4                30                30
    2004          11       20                36                     5                45                43
    2003           4        6                 9                     0                 9                9
    2002           7       14                29                     4                30                30
    2001           3        0                 0                     0                 0                0
    2000           4        8                17                     1                17                17
    1999           3        9                11                     0                10                10
Totals            74       111              200                    17                225              216
Source: TIGTA issued reports and Joint Audit Management Enterprise System Corrective Action Forms.




1
    As of July 2009.
                                                                                                     Page 12
                                      Procurement Audit Results Indicate
                                        Problems Continue to Exist After
                                     Corrective Actions Were Implemented



                                                                                                Appendix V

                    Total Outcome Measures1 by Type

Some of the 74 procurement-related audit reports issued by the TIGTA during the period
Fiscal Year 1999 through June 2009 included outcome measures. The following chart shows the
total outcome measures by type of measure included in the final reports. We did not obtain the
actual outcomes for the potential outcomes that may have been realized after our reports were
issued.

        Type of Outcome Measure                   Potential Outcomes                 Actual Outcomes
    Increased Revenue                                               $180,485                                $0
    Cost Savings                                                $18,794,317                      $6,853,536
    Inefficient Use of Resources                                            $0                   $3,719,844
    Protection of Resources/
                                                              $160,322,430                    $121,445,258
    Reliability of Information
                                      Total                   $179,297,232                    $132,018,638
    Source: TIGTA issued reports.




1
 The TIGTA also identifies the measurable impact that our recommended actions will have on tax administration.
These impacts are referred to as “outcomes” and are presented as both “potential” and “actual.” The Office of Audit
also conducts followup reviews on some of the corrective actions to determine if their implementation adequately
addressed the reported issue.
                                                                                                          Page 13
                                       Procurement Audit Results Indicate
                                         Problems Continue to Exist After
                                      Corrective Actions Were Implemented



                                                                                               Appendix VI

                        Use of Different Contract Types
                         During the Period 2005–20101

                                        Percentage of Contracts by Type

                       70%
                       60%
                       50%
                                                                                                  Fixed-Price
                       40%
      % of Contracts                                                                              Fixed-Price Hybrid
                       30%
                                                                                                  Cost-Reimbursement
                       20%
                       10%
                       0%
                              2005       2006      2007       2008       2009       2010
                                                    Year


    Source: IRS Office of Procurement Active Contract Listings.

                        Contract Type as a Percentage of Total Value of the Contract

                      90%
                      80%
                      70%
                      60%
                                                                                                   Fixed-Price
                      50%
       % of Contracts                                                                              Fixed-Price Hybrid
                      40%
                                                                                                   Cost-Reimbursement
                      30%
                      20%
                      10%
                       0%
                               2005       2006      2007       2008       2009       2010
                                                      Year


    Source: IRS Office of Procurement Active Contract Listings.


1
 Because the IRS Office of Procurement Active Contract Listings are continuously updated and maintained on a
cumulative basis, we obtained the listing report with data as of April 13, 2005; March 31, 2006; March 31, 2007;
March 31, 2008; May 13, 2009; and March 15, 2010 for the basis of our comparison.
                                                                                                          Page 14
                                      Procurement Audit Results Indicate
                                        Problems Continue to Exist After
                                     Corrective Actions Were Implemented



                                                                                              Appendix VII

            Office of Procurement Authorized Staffing
                 Levels Fiscal Years 2000–20091

                                       Fiscal Year        Total Staffing

                                           2000                  542

                                           2001                  546

                                           2002                  528

                                           2003                  508

                                           2004                  528

                                           2005                  561

                                           2006                  544

                                           2007                  557

                                           2008                  550

                                           2009                  537
                                     Source: IRS Office of Procurement.




1
  Staffing includes the position categories of Specialists, Program Managers, Analysts, Contracting
Specialist/Officer, Purchasing, and various Administrative and Clerical. Staffing levels do not include the COTRs
in the IRS’ operating divisions but do include vacancies for positions within the IRS Office of Procurement. The
number of vacancies ranged from 71 in Fiscal Year 2000 to 41 in Fiscal Year 2009.
                                                                                                          Page 15
                                         Procurement Audit Results Indicate
                                           Problems Continue to Exist After
                                        Corrective Actions Were Implemented



                                                                                                 Appendix VIII

    Number and Total Value of Internal Revenue Service
                      Procurements

                                                                                           Total Value
         Calendar Year                     Number of Procurements
                                                                                     (including option years)1
                2005                                      871                              $43,558,918,446
                2006                                      839                              $70,621,796,339
                2007                                      803                              $70,736,332,246
                2008                                      905                              $45,791,453,271
                2009                                      836                              $43,222,479,019
                2010                                      839                              $48,143,496,760
Source: IRS Active Contract Listings.




1
 The IRS has a unilateral right specified in a contract by which, for a specified time, the Government may elect to
purchase additional supplies or services called for by the contract, or may elect to extend the term of the contract for
additional years (option years) without having to award a new procurement.
                                                                                                              Page 16
                                        Procurement Audit Results Indicate
                                          Problems Continue to Exist After
                                       Corrective Actions Were Implemented



                                                                                                Appendix IX

    Office of Procurement’s Operational Budget1 Levels
                  Fiscal Years 2000–2009

                                         Fiscal Year        Total Budget

                                             2000            $43,372,252

                                             2001            $52,056,694

                                             2002            $57,730,764

                                             2003            $57,836,618

                                             2004            $61,347,499

                                             2005            $65,595,352

                                             2006            $73,248,869

                                             2007            $76,625,572

                                             2008            $76,269,289

                                             2009            $78,343,076
                                       Source: IRS Office of Procurement.




1
    This is the Office of Procurement Operational Budget only and does not include the amount of the procurements.
                                                                                                           Page 17
                                Procurement Audit Results Indicate
                                  Problems Continue to Exist After
                               Corrective Actions Were Implemented



                                                                               Appendix X

                 Listing of the Reports Addressing
                the Use of Performance-Based and
                  Firm Fixed-Price Procurements

The following 9 TIGTA reports (from our population of 74 audit reports) address the 2 areas
where we made several repeat recommendations.

TIGTA Reports Addressing Performance Based Procurements
   •   The Business Systems Modernization Office Needs to Strengthen Its Processes for
       Overseeing the Work of the PRIME Contractor (Reference Number 2002-20-059, dated
       March 1, 2002).
   •   While Many Improvements Have Been Made, Continued Focus Is Needed to Improve
       Contract Negotiations and Fully Realize the Potential of Performance-Based Contracting
       (Reference Number 2005-20-083, dated May 26, 2005).
   •   The IRS Is Successfully Taking Steps to Transition Modernization Activities From the
       PRIME Contractor; However, Difficult Challenges Remain (Reference
       Number 2007-20-003, dated October 24, 2006).
   •   While Improvements Continue in Contract Negotiation Methods and Management
       Practices, Inconsistencies Need to Be Addressed (Reference Number 2007-20-123, dated
       July 27, 2007).
   •   Due to the Lack of Experienced Users, the Benefits of Performance-Based Acquisition
       Are Not Being Fully Realized (Reference Number 2008-10-098, dated April 11, 2008).

TIGTA Reports Addressing Firm Fixed-Price Procurements
   •   Additional Improvements Are Needed in the Application of Performance-Based
       Contracting to Business Systems Modernization Projects (Reference
       Number 2002-20-170, dated September 13, 2002).
   •   While Many Improvements Have Been Made, Continued Focus Is Needed to Improve
       Contract Negotiations and Fully Realize the Potential of Performance-Based Contracting
       (Reference Number 2005-20-083, dated May 26, 2005).



                                                                                       Page 18
                            Procurement Audit Results Indicate
                              Problems Continue to Exist After
                           Corrective Actions Were Implemented



•   While Improvements Continue in Contract Negotiation Methods and Management
    Practices, Inconsistencies Need to Be Addressed (Reference Number 2007-20-123, dated
    July 27, 2007).
•   Current Practices Might Be Preventing Use of the Most Advantageous Contractual
    Methods to Acquire Goods and Services (Reference Number 2009-10-037, dated
    February 10, 2009).




                                                                                 Page 19
            Procurement Audit Results Indicate
              Problems Continue to Exist After
           Corrective Actions Were Implemented



                                                 Appendix XI

Management’s Response to the Draft Report




                                                      Page 20
 Procurement Audit Results Indicate
   Problems Continue to Exist After
Corrective Actions Were Implemented




                                      Page 21
